                                                                                                  I1 '




                                     n                                        n
          *CL   S ~ ,                               NATIONAL SCIENCE FOUNDATION

     <@!
      4
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
       0
        'JN D a<\'                                                                                   I




     Case Number: I06100037                                                                   Page 1 of 1
                                                                                                         f




            This investigation was initiated based upon information received that an NSF employee's'
            computer contained numerous inappropriate file names and pornographic images. A computer
            forensic examination found that no child pornography existed on the drive. However, the hard
            drive did contain a large amount of inappropriate sexually explicit files.

            The employee was interviewed and acknowledged having visited inappropriate adult web sites
            containing pornographic material from his NSF computer. Additionally, this employee
            downloaded various files to the hard drive of the NSF computer. He stated that he understood
            that these activities were inappropriate at work. The employee acknowledged that he was
            familiar with NSF's personal use policy for use of government equipment and that he has
            participated in the Agency's Computer Security Training.

            A report of investigation was submitted to the appropriate NSF official3 for action. The ,
            employee was reprimanded4 for his actions and received a counseling letter. The official:^
            decision was sent for review and while awaiting a final decision on this matter, the employee was
            terminated for his absence without leave (AWOL).~




II                                                                                                           I


 NSF OIG Form 2 (1 1/02)
